Case: 19-13299

Date Filed: 05/01/2020

Page: 1 of 14

[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 19-13299
Non-Argument Calendar
________________________
D.C. Docket No. 2:17-cr-00487-WKW-WC-1

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
versus
LAQUANDA GILMORE GARROTT,
Defendant-Appellant.
________________________
Appeal from the United States District Court
for the Middle District of Alabama
________________________
(May 1, 2020)
Before WILLIAM PRYOR, MARTIN, and LUCK, Circuit Judges.
PER CURIAM:
After she was convicted of eight counts of aiding and assisting in the filing of
false federal income tax returns, Laquanda Garrott was sentenced to seventy-

App. 1

Case: 19-13299

Date Filed: 05/01/2020

Page: 2 of 14

two months’ imprisonment. On appeal, she asks us to vacate her conviction because
the district court participated in plea negotiations and her sentence because it was
substantively unreasonable. We affirm.
FACTUAL BACKGROUND AND PROCEDURAL HISTORY
An investigation by the Internal Revenue Service revealed that Garrott, who
operated a small tax return preparation business, falsified and submitted around one
hundred tax returns on behalf of her customers. She received nearly $675,000 from
the Treasury as a result of the false returns. The government charged Garrott with
ten counts of aiding and assisting in the filing of false federal income tax returns, in
violation of 26 U.S.C. § 7206(2).
Almost a year after the charges were filed, Garrott and the government entered
into a plea agreement under Federal Rule of Criminal Procedure 11(c)(1)(A).1
Pursuant to the agreement, Garrott would plead guilty to one count, and the
government agreed to dismiss the remaining nine counts. The maximum sentence
would have been three years’ imprisonment. See 26 U.S.C. § 7206. A magistrate
judge accepted the plea agreement, and the district judge set a date for the sentence
hearing.

1

Rule 11(c)(1)(A), in relevant part, provides: “If the defendant pleads guilty . . . to . . . a
charged offense . . . , the plea agreement may specify that an attorney for the government
will . . . move to dismiss[] other charges.” If the district court accepts a plea agreement under this
rule, it is bound by its terms. Fed. R. Crim. P. 11(c)(4).
2

App. 2

Case: 19-13299

Date Filed: 05/01/2020

Page: 3 of 14

Before the sentence hearing, however, Garrott was arrested for violating the
conditions of her pretrial release by failing to pay rent and thus acquiring further
debt without the permission of her pretrial release officer. The district court found
that Garrott violated her pretrial release conditions, revoked her bond, and placed
her in custody pending sentencing.
At the scheduled sentence hearing, the district court rejected Garrott’s plea
agreement:
So we are facing, per charge—or at least per the charge of
conviction, if I accepted the plea agreement, a statutory maximum of
[thirty-six] months. The reason I don’t accept and will not accept the
plea agreement at the moment—I might sentence within that; I
just . . . won’t be bound to it—is because of the extensive criminal
history, over 11 years, of—well many years, with [seventy-nine] bad
check cases over the last 11 years and other offenses and I think some
more recent ones I didn’t know about.
So for that reason, Ms. Garrott, I am rejecting the plea agreement
at this time in your case. And the provision I’m particularly rejecting
is the dismissal of all the charges except for the one count.
In a follow-up memorandum, the district court explained that it rejected the
plea agreement because it compelled an “unreasonable sentence.” Garrott had an
“extensive criminal history, including no less than eighty-seven previous
convictions,”2 the district court noted, and that, “[w]ith a total offense level of

2

Garrott had seventy-nine convictions for writing bad checks, four for theft, one for
reckless endangerment, one for domestic violence and harassment, one for giving a false name to
law enforcement, and one for driving with a revoked license and using a license plate to conceal
one’s identity.
3

App. 3

Case: 19-13299

Date Filed: 05/01/2020

Page: 4 of 14

[twenty-two] and a criminal category of III, [her] guidelines range would have been
[fifty-one] to [sixty-three] months, without an acceptance-of-responsibility
reduction.” But the plea agreement, the court recognized, “limit[ed] Garrott’s
sentence to no more than the statutory maximum of [thirty-six] months’
imprisonment.” The court emphasized that, according to the sentencing factors set
forth in 18 U.S.C. § 3553(a), it had a “duty to impose a sentence sufficient, but not
greater than necessary, to comply with the statutory purposes of sentencing.’”
Considering these factors and Garrott’s “history and characteristics,” the court
determined that “a sentence of [thirty-six] months would not merely be unreasonable
but would be outright irrational”—especially because Garrott had served only
thirteen days in custody total for her prior convictions. Her prior conduct, the court
continued, was “rife with falsity and fraud” and “demonstrate[d] the impropriety of
a [thirty-six]-month sentence.” Aside from Garrott’s criminal history, the court
observed that her “relevant conduct, according to the presentence report, [was] much
more serious than the ten pending charges suggest”; she had “filed approximately
100 false tax returns—totaling $674,372 in fraudulent refunds—which were all paid
out by the IRS.” With “all ten counts in play,” the court said that Garrott could
“potentially be facing a [thirty]-year maximum sentence.”
The court stated that it was “express[ing] no view on either the weight or the
nature of the evidence against Garrott or what sentence Garrott would receive if she
4

App. 4

Case: 19-13299

Date Filed: 05/01/2020

Page: 5 of 14

were found guilty on some or all of the ten counts.” It noted that it could, however,
“express its view that a particular sentence [was] too lenient.” The court stressed
that it was “declin[ing] to say what an appropriate sentence [was]” and, instead, was
“only say[ing] that [thirty-six] months’ imprisonment [was] inappropriate.” Finally,
in a footnote, the district court informed the parties that another binding plea
agreement—whether under rule 11(c)(1)(A) or (C) 3—“would most likely be viewed
as a guess as to what the judge is thinking, or bait to catch the best deal.” The district
court said it would keep “an open mind as to what constitute[d] a reasonable
sentence.” Following the memorandum, Garrott withdrew her guilty plea.
On the eve of trial, the parties reached another plea agreement.

This

agreement, made pursuant to rule 11(c)(1)(C), proposed to bind the district court to
a sentence at the bottom of the guidelines range so long as Garrott pleaded guilty to
two of the ten counts. At a hearing, the district court rejected the agreement,
reiterating its position that a binding plea agreement “would be seen as manipulating
the court” and that it could not participate in the plea negotiations. When asked
whether she was ready to proceed to trial, Garrott told the court that she did not
“know what other option there [was] . . . other than . . . pleading guilty to all of the
counts in the indictment.” The court responded, “I mean, there’s always a [rule

3

In a plea agreement under rule 11(c)(1)(C), the government “agree[s] that a specific
sentence or sentencing range is the appropriate disposition of the case.” Such a recommendation
binds the district court once it accepts the plea agreement. Fed. R. Crim. P. 11(c)(1)(C).
5

App. 5

Case: 19-13299

Date Filed: 05/01/2020

Page: 6 of 14

11(c)(1)(B) agreement]. I don’t know—that’s what most courts do is a (B). I’m just
saying.” “[W]hether she pleads to one or ten,” the court continued, “isn’t going to
affect the sentence . . . is my point. This is all about sentencing. And sentencing is
the court’s prerogative, and I don’t want to be manipulated into caps, bottoms,
whatever, when I’ve told you once that this is a serious case.” The court concluded
the hearing by informing Garrott that it “[could not] participate in [plea agreement]
discussions” and that its rejection of the plea was not driven by the number of counts
she pleaded to; instead, “[it was] driven by what is a reasonable sentence.”
On the first day of trial, Garrott notified the district court that the government
offered her another plea agreement, which required her to plead guilty to two counts.
She told the district court that she had rejected this plea agreement. The trial
proceeded, and she was ultimately convicted of eight of the ten counts.
In its presentence investigation report, the probation office calculated
Garrott’s offense level at twenty-two, her criminal history score at nine, and her
criminal history category at IV. The probation office did not include a three-level
reduction for accepting responsibility. Based on her offense level and criminal
history, Garrott’s guidelines range was sixty-three to seventy-eight months’
imprisonment. The parties did not object to the presentence report.
At the sentence hearing, Garrott asked for a downward variance from her
guidelines range because she had accepted responsibility for her conduct before trial.
6

App. 6

Case: 19-13299

Date Filed: 05/01/2020

Page: 7 of 14

She claimed that she had admitted to some wrongdoing when she pleaded guilty
twice and that she withdrew those pleas only because the district court rejected the
plea agreements. The government opposed the downward variance because Garrott
had violated her conditions of pretrial release, had an extensive criminal history, and
received a large sum of money as a result of the scheme. However, the government
did acknowledge that Garrott accepted responsibility for her crimes at the sentence
hearing and attempted to do so “in the past.”
The district court denied the variance because Garrott violated the conditions
of her pretrial release and did not accept responsibility by pleading guilty. The
district court sentenced Garrott to seventy-two months’ imprisonment and ordered
her to pay restitution in the amount of $56,897. The district court noted that it would
have imposed this same sentence even if it found that she had accepted
responsibility. The district court emphasized that “the problem . . . driving the size
of [her] sentence” was her extensive criminal history. Pointing to the § 3553(a)
factors, the district court explained that (1) Garrott’s conduct contributed to the
rampant tax fraud that was going on in Montgomery at the time, (2) the crime and
the amount of loss were serious, (3) the sentence was appropriate to deter “other
people who might think that they could help cheat the government,” and (4) it
wanted to protect the public from any further crimes Garrott would commit. Garrott

7

App. 7

Case: 19-13299

Date Filed: 05/01/2020

Page: 8 of 14

objected that the sentence was substantively unreasonable, but the district court
overruled her objection. This is her appeal.
DISCUSSION
Garrott raises two issues on appeal: First, she contends the district court
improperly participated in her plea negotiations with the government. Second, she
argues her sentence was substantively unreasonable.
Plea Negotiations
Garrott contends that her conviction should be vacated because the district
court inappropriately participated in plea negotiations when it rejected her first plea
agreement and stated that the thirty-six-month sentence the parties agreed to was
unreasonable considering her criminal history. She claims that by rejecting the
agreement for this reason, the district court “implied that the parties needed to craft
an agreement that would allow for a greater term of imprisonment.” She also argues
that the district court participated in plea negotiations when it stated in its
memorandum that a binding plea agreement under rule 11(c)(1)(A) or (C) “would
most likely be viewed as a guess as to what the judge is thinking, or bait to catch the
best deal” and when it told the parties at a hearing that they could enter into a nonbinding agreement under rule 11(c)(1)(B). Based on these statements, Garrott
claims that the district court “effectively laid out what plea agreement it would find

8

App. 8

Case: 19-13299

Date Filed: 05/01/2020

Page: 9 of 14

acceptable, namely a plea under [r]ule 11(c)(1)(B) that would permit the court to
sentence . . . Garrott to more than [thirty-six] months.”
Because Garrott did not raise these objections below, we review for plain
error. United States v. Castro, 736 F.3d 1308, 1313 (11th Cir. 2013). In doing so,
we must examine the entire record. United States v. Harrell, 751 F.3d 1235, 1237
(11th Cir. 2014). To succeed under the plain-error rule, Garrott must show that “the
district court commit[ted] an error that [was] plain, affect[ed] [her] substantial rights,
and ‘seriously affect[ed] the fairness, integrity or public reputation of judicial
proceedings.’” Id. at 1236 (quoting United States v. Vonn, 535 U.S. 55, 63 (2002)).
An error is plain if “the error . . . is obvious and is clear under current law,” United
States v. Dortch, 696 F.3d 1104, 1112 (11th Cir. 2012), and an error is not obvious
or clear when “‘[n]o Supreme Court decision squarely supports’ the defendant’s
argument, ‘other circuits . . . are split’ regarding the resolution of the defendant’s
argument, and ‘we have never resolved the issue,’” id. (quoting United States v.
Humphrey, 164 F.3d 585, 588 (11th Cir. 1999)).
Rule 11(c)(1) provides that “an attorney for the government and the
defendant’s attorney . . . may discuss and reach a plea agreement,” but “[t]he court
must not participate in these discussions.” Rule 11(c)(1) “creates a ‘bright line rule’
that prohibits ‘the participation of the judge in plea negotiations under any
circumstances.’” Harrell, 751 F.3d at 1239 (quoting United States v. Johnson, 89
9

App. 9

Case: 19-13299

Date Filed: 05/01/2020

Page: 10 of 14

F.3d 778, 783 (11th Cir. 1996)). The rule serves two purposes: it acts as a “safeguard
[to] the trial judge’s actual neutrality” and “protect[s] [against] the appearance of
impartiality.” United States v. Tobin, 676 F.3d 1264, 1303–04 (11th Cir. 2012)
(citing United States v. Adams, 634 F.2d 830, 840–41 (5th Cir. 1981)).
Here, there was no error. The district court was well within its authority to
reject the plea agreement as unreasonable. See United States v. Bean, 564 F.2d 700,
703–04 (5th Cir. 1977) (“A decision that a plea bargain will result in the defendant’s
receiving too light a sentence under the circumstances of the case is a sound reason
for a judge’s refusing to accept the agreement.”);4 see also Fed. R. Crim. P.
11(c)(5)(A) (requiring a district court to inform the parties that it rejected a rule
11(c)(1)(A) or (C) plea agreement “on the record and in open court”).
The record shows that the district court did not participate in the parties’ plea
negotiations. The district court denied Garrott’s motion for a status conference,
explaining that the “motion border[ed] on an invitation for the court to engage in
plea negotiations, which of course it [could not] do.” The district court stated that it
was “express[ing] no view on either the weight or the nature of the evidence against
Garrott or what sentence Garrott would receive if she were found guilty on some or
all of the ten counts.” At the hearing on the second plea agreement, the district court

4

In Bonner v. City of Prichard, 661 F.2d 1206, 1209 (11th Cir. 1981) (en banc), we adopted
as binding precedent all decisions of the former Fifth Circuit handed down before October 1, 1981.
10

App. 10

Case: 19-13299

Date Filed: 05/01/2020

Page: 11 of 14

said again that it “[could not] participate in [plea agreement] discussions.” The
district court’s statements here were unlike those we’ve held to be engaging in plea
negotiations. See, e.g., United States v. Diaz, 138 F.3d 1359, 1361 (11th Cir. 1998)
(concluding that the district court participated in plea discussions when it listened to
the government’s summary of the evidence, told the defendant that the evidence
against him was “compelling,” and told the defendant that he needed “to think about
[his] options” “because if this is a one-day or two-day trial, [he’s] going to risk ten
years in prison”); Adams, 634 F.2d at 836 (holding that the district court participated
in plea discussions when it discussed the bargain with the parties in chambers and
“offered a plea bargain to [the defendant] on [its] own initiative”).
Even if the district court erred when it mentioned the non-binding plea under
rule 11(c)(1)(B), the error was not plain. We have never held, and Garrott doesn’t
cite to any case holding, that a district court violates rule 11(c)(1) when it rejects a
plea agreement because it doesn’t want to be bound to a specific sentence under rules
11(c)(1)(A) and 11(c)(1)(C). We thus conclude that the district court did not plainly
err when it rejected Garrott’s plea agreements.
Whether Garrott’s Sentence Was Substantively Unreasonable
Garrott next argues that her seventy-two month sentence was substantively
unreasonable because the district court gave too much weight to her criminal history,
erroneously found that she did not accept responsibility for her conduct, gave too
11

App. 11

Case: 19-13299

Date Filed: 05/01/2020

Page: 12 of 14

much weight to the seriousness of the loss amount, sought to deter Garrott from
criminal conduct that she could no longer partake in, and imposed a sentence that
was disproportionate to other defendants in similar circumstances.
The party challenging the sentence—here, Garrott—bears the burden of
establishing that her sentence was substantively unreasonable. United States v.
Sarras, 575 F.3d 1191, 1219 (11th Cir. 2009). Specifically, we apply the deferential
abuse-of-discretion standard. Gall v. United States, 552 U.S. 38, 51 (2007). We
give “due deference” to the district court “because it has an institutional advantage
in making sentencing determinations.” United States v. Shabazz, 887 F.3d 1204,
1224 (11th Cir. 2018) (internal quotation marks omitted). In evaluating the
reasonableness of the sentence, we consider the totality of the circumstances. United
States v. Alberts, 859 F.3d 979, 985 (11th Cir. 2017).
To determine an appropriate sentence, district courts must consider
the § 3553(a) sentencing factors. “A district court abuses its considerable discretion
and imposes a substantively unreasonable sentence only when it ‘(1) fails to afford
consideration to relevant factors that were due significant weight, (2) gives
significant weight to an improper or irrelevant factor, or (3) commits a clear error of
judgment in considering the proper factors.’” United States v. Rosales-Bruno, 789
F.3d 1249, 1256 (11th Cir. 2015) (quoting United States v. Irey, 612 F.3d 1160, 1189
(11th Cir. 2010) (en banc)).
12

App. 12

Case: 19-13299

Date Filed: 05/01/2020

Page: 13 of 14

Garrott’s sentence was not substantively unreasonable. Seventy-two months’
imprisonment is considerably lower than the statutory maximum of 288 months and
within the guidelines range of sixty-three to seventy-eight months—both signs that
the sentence was reasonable. See United States v. Stanley, 739 F.3d 633, 656 (11th
Cir. 2014) (“[W]hen the district court imposes a sentence within the advisory
[g]uidelines range, we ordinarily will expect that choice to be a reasonable one. A
sentence imposed well below the statutory maximum penalty is an indicator of a
reasonable sentence.” (citation and internal quotation marks omitted)). The district
court did not abuse its discretion when it weighed Garrott’s criminal history and the
loss she caused over other factors. “District courts have broad leeway in deciding
how much weight to give to prior crimes the defendant has committed.” RosalesBruno, 789 F.3d at 1261. Garrott’s criminal history, which the district court
emphasized was “the problem . . . driving the size of [her] sentence,” included
87 crimes that were, like the ones in this case, based on theft and fraud. And the
presentence investigation report showed that Garrott filed approximately one
hundred false tax returns, which resulted in a $674,372 loss to the Treasury.
Garrott cites to two cases—United States v. Fox, 626 F. App’x 841 (11th Cir.
2015) (unpublished), and United States v. Angulo, 638 F. App’x 856 (11th Cir.
2016) (unpublished)—as evidence that her sentence was disproportionate compared
to defendants “with similar records who have been found guilty of similar conduct.”
13

App. 13

Case: 19-13299

Date Filed: 05/01/2020

Page: 14 of 14

These cases do not show disparate treatment because Garrott had a more severe,
extensive, and long-standing criminal history, which, as the district court explained,
made all the difference in this case. See Fox, 626 F. App’x at 842 (criminal history
category of II); Angulo, 638 F. App’x at 859 (criminal history category of I). The
sentencing record reflects that the district court reviewed the relevant § 3553(a)
factors, did not give significant weight to an improper or irrelevant factor, and
committed no clear error of judgment in its sentencing decision.
CONCLUSION
For these reasons, we conclude that the district court did not plainly err in
participating in Garrott’s plea negotiations, and Garrott’s sentence was not
substantively unreasonable.
AFFIRMED.

14

App. 14

AO 245B (Rev. )

Case 2:17-cr-00487-WKW-WC Document 127 Filed 08/14/19 Page 1 of 8
Judgment in a Criminal Case
Sheet 1

UNITED STATES DISTRICT COURT
Middle District
__________
DistrictofofAlabama
__________
)
UNITED STATES OF AMERICA
JUDGMENT IN A CRIMINAL CASE
)
v.
)
XP
)
LAQUANDA GILMORE GARROTT
Case Number: 2:17cr487-WKW-01
)
)
USM Number: 17355-002
)
Cecilia Vaca
)
Defendant’s
Attorney
)

THE DEFENDANT:

G pleaded guilty to count(s)
G pleaded nolo contendere to count(s)
which was accepted by the court.

✔ was found guilty on count(s)
G

3-10 of the Indictment on 5/9/2019

after a plea of not guilty.
The defendant is adjudicated guilty of these offenses:
Title & Section

26§7206(2)

Nature of Offense

Offense Ended

Aiding and Assisting in the Filing of False Federal Income

4/1/2014

Count

3

Tax Returns
See Next Page
8

The defendant is sentenced as provided in pages 2 through
the Sentencing Reform Act of 1984.

of this judgment. The sentence is imposed pursuant to

✔ The defendant has been found not guilty on count(s)
G

1 and 2 of the Indictment

G Count(s)

G are dismissed on the motion of the United States.

G is

It is ordered that the defendant must notify the United States attorney for this district within 30 days of any change of name, residence,
or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If ordered to pay restitution,
the defendant must notify the court and United States attorney of material changes in economic circumstances.

8/8/2019
Date of Imposition of Judgment

/s/ W. Keith Watkins
Signature of Judge

W. KEITH WATKINS, United States District Judge
Name and Title of Judge

8/14/2019
Date

App. 15

Case 2:17-cr-00487-WKW-WC Document 127 Filed 08/14/19 Page 2 of 8

AO 245B (Rev. )

Judgment in a Criminal Case
Sheet 1A
Judgment—Page

2

of

8

DEFENDANT: LAQUANDA GILMORE GARROTT
CASE NUMBER: 2:17cr487-WKW-01

ADDITIONAL COUNTS OF CONVICTION
Title & Section

Nature of Offense

26§7206(2)

Aiding and Assisting in the Filing of False Federal

Offense Ended

Count

4/1/2014

4

4/1/2014

5

4/1/2014

6

4/1/2014

7

4/1/2014

8

4/1/2014

9

4/1/2014

10

Income Tax Returns
26§7206(2)

Aiding and Assisting in the Filing of False Federal
Income Tax Returns

26§7206(2)

Aiding and Assisting in the Filing of False Federal
Income Tax Returns

26§7206(2)

Aiding and Assisting in the Filing of False Federal
Income Tax Returns

26§7206(2)

Aiding and Assisting in the Filing of False Federal
Income Tax Returns

26§7206(2)

Aiding and Assisting in the Filing of False Federal
Income Tax Returns

26§7206(2)

Aiding and Assisting in the Filing of False Federal
Income Tax Returns

App. 16

Case 2:17-cr-00487-WKW-WC Document 127 Filed 08/14/19 Page 3 of 8
AO 245B (Rev. ) Judgment in Criminal Case
Sheet 2 — Imprisonment
Judgment — Page

3

of

8

DEFENDANT: LAQUANDA GILMORE GARROTT
CASE NUMBER: 2:17cr487-WKW-01

IMPRISONMENT
The defendant is hereby committed to the custody of the Federal Bureau of Prisons to be imprisoned for a total
term of:

Seventy Two (72) Months. This sentence consists of 36 months per count, to be served consecutively to the extent
necessary to produce a total sentence of 72 months.

G The court makes the following recommendations to the Bureau of Prisons:

✔ The defendant is remanded to the custody of the United States Marshal.
G

G The defendant shall surrender to the United States Marshal for this district:
G at

G a.m.

G p.m.

on

.

G as notified by the United States Marshal.
G The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:
G before 2 p.m. on

.

G as notified by the United States Marshal.
G as notified by the Probation or Pretrial Services Office.

RETURN
I have executed this judgment as follows:

Defendant delivered on
aW

to
, with a certified copy of this judgment.

UNITED STATES MARSHAL

By
DEPUTY UNITED STATES MARSHAL

App. 17

Case 2:17-cr-00487-WKW-WC Document 127 Filed 08/14/19 Page 4 of 8
AO 245B (Rev. ) Judgment in a Criminal Case
Sheet 3 — Supervised Release
Judgment—Page

4

8

of

DEFENDANT: LAQUANDA GILMORE GARROTT
CASE NUMBER: 2:17cr487-WKW-01

SUPERVISED RELEASE
Upon release from imprisonment, you will be on supervised release for a term of :

One Year. This term consists of one year as to each of counts 3 - 10, to run concurrently.

MANDATORY CONDITIONS
1.
.
.

You must not commit another federal, state or local crime.
You must not unlawfully possess a controlled substance.
You must refrain from any unlawful use of a controlled substance. You must submit to one drug test within 15 days of release from
imprisonment and at least two periodic drug tests thereafter, as determined by the court.
G The above drug testing condition is suspended, based on the court's determination that you
SRVHDORZULVNRIIXWXUHVXEVWDQFHDEXVH FKHFNLIDSSOLFDEOH



G <RXPXVWPDNHUHVWLWXWLRQLQDFFRUGDQFHZLWK86&DQG$RUDQ\RWKHUVWDWXWHDXWKRUL]LQJDVHQWHQFHRI

.

✔ You must cooperate in the collection of DNA as directed by the probation officer. (check if applicable)
G
G You must comply with the requirements of the Sex Offender Registration and Notification Act ( U.S.C. § , et seq.) as

.

.

UHVWLWXWLRQ FKHFNLIDSSOLFDEOH

G

directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in WKHORFDWLRQwhHUH you
reside, work,are a student, or were convicted of a qualifying offense. (check if applicable)
You must participate in an approved program for domestic violence. (check if applicable)

You must comply with the standard conditions that have been adopted by this court as well as with any other conditions on the attached
page.

App. 18

Case 2:17-cr-00487-WKW-WC Document 127 Filed 08/14/19 Page 5 of 8
AO 245B (Rev. ) Judgment in a Criminal Case
Sheet 3A — Supervised Release
Judgment—Page

5

of

8

DEFENDANT: LAQUANDA GILMORE GARROTT
CASE NUMBER: 2:17cr487-WKW-01

STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must comply with the following standard conditions of supervision. These conditions are imposed
because they establish the basic expectations for your behavior while on supervision and identify the minimum tools needed by probation
officers to keep informed, report to the court about, and bring about improvements in your conduct and condition.
1.
2.
3.
4.
5.

6.
7.

8.
9.
10.
11.
12.
13.

You must report to the probation office in the federal judicial district where you are authorized to reside within 72 hours of your
release from imprisonment, unless the probation officer instructs you to report to a different probation office or within a different time
frame.
After initially reporting to the probation office, you will receive instructions from the court or the probation officer about how and
when you must report to the probation officer, and you must report to the probation officer as instructed.
You must not knowingly leave the federal judicial district where you are authorized to reside without first getting permission from the
court or the probation officer.
You must answer truthfully the questions asked by your probation officer.
You must live at a place approved by the probation officer. If you plan to change where you live or anything about your living
arrangements (such as the people you live with), you must notify the probation officer at least 10 days before the change. If notifying
the probation officer in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72
hours of becoming aware of a change or expected change.
You must allow the probation officer to visit you at any time at your home or elsewhere, and you must permit the probation officer to
take any items prohibited by the conditions of your supervision that he or she observes in plain view.
You must work full time (at least 30 hours per week) at a lawful type of employment, unless the probation officer excuses you from
doing so. If you do not have full-time employment you must try to find full-time employment, unless the probation officer excuses
you from doing so. If you plan to change where you work or anything about your work (such as your position or your job
responsibilities), you must notify the probation officer at least 10 days before the change. If notifying the probation officer at least 10
days in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72 hours of
becoming aware of a change or expected change.
You must not communicate or interact with someone you know is engaged in criminal activity. If you know someone has been
convicted of a felony, you must not knowingly communicate or interact with that person without first getting the permission of the
probation officer.
If you are arrested or questioned by a law enforcement officer, you must notify the probation officer within 72 hours.
You must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.e., anything that was
designed, or was modified for, the specific purpose of causing bodily injury or death to another person such as nunchakus or tasers).
You must not act or make any agreement with a law enforcement agency to act as a confidential human source or informant without
first getting the permission of the court.
If the probation officer determines that you pose a risk to another person (including an organization), the probation officer may
require you to notify the person about the risk and you must comply with that instruction. The probation officer may contact the
person and confirm that you have notified the person about the risk.
You must follow the instructions of the probation officer related to the conditions of supervision.

U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the conditions specified by the court and has provided me with a written copy of this
judgment containing these conditions. For further information regarding these conditions, see Overview of Probation and Supervised
Release Conditions, available at: www.uscourts.gov.
Defendant's Signature

Date

App. 19

Case 2:17-cr-00487-WKW-WC Document 127 Filed 08/14/19 Page 6 of 8

AO 245B(Rev. ) Judgment in a Criminal Case
Sheet 3D — Supervised Release

Judgment—Page

6

of

8

DEFENDANT: LAQUANDA GILMORE GARROTT
CASE NUMBER: 2:17cr487-WKW-01

SPECIAL CONDITIONS OF SUPERVISION
1.) The defendant shall provide the probation officer any requested financial information.
2.) The defendant shall not incur new credit charges or open additional lines of credit without approval of the Court or the
Probation Officer unless in compliance with the payment schedule.
3.) The defendant shall submit to a search of his person, residence, office and vehicle pursuant to the search policy of this
court.
4.) The defendant is prohibited from preparing tax returns for anyone except herself and her immediate family.
5.) The defendant is prohibited from working in any tax preparation business in any capacity.
6.) The defendant shall complete and file any delinquent tax returns and enter a payment plan with the Internal Revenue
Service to pay any delinquent taxes owed.

App. 20

AO 245B (Rev. )

Case
2:17-cr-00487-WKW-WC Document 127 Filed 08/14/19 Page 7 of 8
Judgment in a Criminal Case
Sheet 5 — Criminal Monetary Penalties
Judgment — Page

7

8

of

DEFENDANT: LAQUANDA GILMORE GARROTT
CASE NUMBER: 2:17cr487-WKW-01

CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule of payments on Sheet 6.
JVTA Assessment*

Assessment
TOTALS

$ 800.00

$ 0.00

G The determination of restitution is deferred until

Fine

Restitution

$ 0.00

$ 56,897.00

. An Amended Judgment in a Criminal Case (AO 245C) will be entered

after such determination.

✔ The defendant must make restitution (including community restitution) to the following payees in the amount listed below.
G
If the defendant makes a partial payment, each payee shall receive an approximately proportioned payment, unless specified otherwise in
the priority order or percentage payment column below. However, pursuant to 18 U.S.C. § 3664(i), all nonfederal victims must be paid
before the United States is paid.
Total Loss**

Name of Payee

Restitution Ordered

Internal Revenue Service

Priority or Percentage

$56,897.00

Attn: Mail Stop 6261
Restitution
333 W. Pershing Avenue
Kansas City, MO 64108

TOTALS

0.00

$

$

56,897.00

G

Restitution amount ordered pursuant to plea agreement $

G

The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full before the
fifteenth day after the date of the judgment, pursuant to 18 U.S.C. § 3612(f). All of the payment options on Sheet 6 may be subject
to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).

✔
G

The court determined that the defendant does not have the ability to pay interest and it is ordered that:

✔ the interest requirement is waived for the
G

G the interest requirement for the

G fine

G fine
G

✔ restitution.
G

restitution is modified as follows:

* Justice for Victims of Trafficking Act of 2015, Pub. L. No. 114-22.
** Findings for the total amount of losses are required under Chapters 109A, 110, 110A, and 113A of Title 18 for offenses committed on or
after September 13, 1994, but before April 23, 1996.

App. 21

Case 2:17-cr-00487-WKW-WC Document 127 Filed 08/14/19 Page 8 of 8

$2% 5HY -XGJPHQWLQD&ULPLQDO&DVH
Sheet 6 — Schedule of Payments

Judgment — Page

8

of

8

DEFENDANT: LAQUANDA GILMORE GARROTT
CASE NUMBER: 2:17cr487-WKW-01

SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties is due as follows:
A

✔ Lump sum payment of $
G

G
✔
G

not later than
in accordance with

57,697.00

G

C,

G

due immediately, balance due

D,

G

, or
E, or

B

G Payment to begin immediately (may be combined with

C

G Payment in equal

D

G Payment in equal

✔ F below; or
G

G C,

G D, or

G F below); or

(e.g., weekly, monthly, quarterly) installments of $
over a period of
(e.g., months or years), to commence
(e.g., 30 or 60 days) after the date of this judgment; or
(e.g., weekly, monthly, quarterly) installments of $
over a period of
(e.g., months or years), to commence
(e.g., 30 or 60 days) after release from imprisonment to a

term of supervision; or
E

G Payment during the term of supervised release will commence within

F

✔ Special instructions regarding the payment of criminal monetary penalties:
G

(e.g., 30 or 60 days) after release from
imprisonment. The court will set the payment plan based on an assessment of the defendant’s ability to pay at that time; or

All criminal monetary payments are to be made to the Clerk, United States District Court, Middle District of
Alabama, One Church St., Montgomery, Alabama 36104. Any balance of restitution remaining at the start of
supervision shall be paid at a rate of not less than $100 per month.

Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal monetary penalties is due during
the period of imprisonment. All criminal monetary penalties, except those payments made through the Federal Bureau of Prisons’ Inmate
Financial Responsibility Program, are made to the clerk of the court.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.

G Joint and Several
Defendant and Co-Defendant Names and Case Numbers (including defendant number), Total Amount, Joint and Several Amount,
and corresponding payee, if appropriate.

G The defendant shall pay the cost of prosecution.
G The defendant shall pay the following court cost(s):
G The defendant shall forfeit the defendant’s interest in the following property to the United States:

Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4) fine principal, (5) fine
interest, (6) community restitution, (7) JVTA assessment, (8) penalties, and (9) costs, including cost of prosecution and court costs.

App. 22

Case 2:17-cr-00487-WKW-WC Document 28 Filed 07/25/18 Page 1 of 11
IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF ALABAMA
NORTHERN DIVISION
UNITED STATES OF AMERICA
CR. NO. 2:17-CR-487-WKW-TFM

v.
LAQUANDA GILMORE GARROTT

PLEA AGREEMENT
I. BACKGROUND INFORMATION
A.

Attorneys

Defense Attorney:

Cecilia Vaca

Assistant United States Attorney:

Jonathan S. Ross

B.

Counts and Statute Charged

Counts 1-10: 26 U.S.C. § 7206(2) — Aiding and assisting in the filing offalse federal income tax
returns
C.

Count Pleading Pursuant to Plea Agreement

Count 1:
D.

26 U.S.C. § 7206(2)

Statutory Penalties

Count 1:

26 U.S.C. § 7206(2)

A term ofimprisonment of not more than 3 years, a fine of not more than $100,000 and the
cost of prosecution or twice the value of the property involved in the transaction, whichever is
greater, or both the fine and imprisonment; a term of supervised release of not than 1 year; an
assessment fee of $100; and an order of restitution.
E.

Elements of the Offense

Count 1:
First:
Second:
Third:
Fourth:

26 U.S.C. § 7206(2)
The defendant aided in the preparation of a return arising under the Internal
Revenue laws;
The return contained a false statement;
The defendant knew that the statement in the return was false;
The false statement was material; and

App. 23

Case 2:17-cr-00487-WKW-WC Document 28 Filed 07/25/18 Page 2 of 11
The defendant did so with the intent to do something the defendant knew
the law forbids.

Fifth:

II. INTRODUCTION
Jonathan S. Ross, Assistant United States Attorney, and Cecilia Vaca, attorney for the
defendant, LaQuanda Gilmore Garrott, pursuant to Rule 11(c)(1)(A) of the Federal Rules of
Criminal Procedure, with the authorization of the defendant, submit this plea agreement. The
terms are as follows.
III. THE GOVERNMENT'S PROVISIONS
1.

Pursuant to Rule 11(c)(1)(A), the government agrees that it will, at the sentencing

hearing, move to dismiss Counts 2 through 10. The government further agrees that it will not
bring any additional charges against the defendant for the conduct described in the Indictment.
2.

The government acknowledges that the defendant assisted authorities in the

investigation and prosecution of the defendant's own misconduct by timely notifying the
government ofthe defendant's intention to enter a guilty plea, thereby permitting the government
to avoid preparing for trial and allowing the government and the Court to allocate resources
efficiently. Provided the defendant otherwise qualifies, and that the defendant does not, before the
date of the sentencing hearing, either personally or through the actions of the defense attorney on
behalf of the defendant, take any action inconsistent the acceptance of responsibility, the
government will move at or before the sentencing hearing for a further reduction ofone level. See
U.S.S.G. § 3E1.1(b). Determination of whether the defendant met the defendant's obligations to
qualify for a reduction pursuant to § 3E1.1(b)is at the sole discretion ofthe government. Further,
the government reserves the right to oppose the defendant's receiving a two-level reduction
pursuant to § 3E1.1(a) should the government receive information indicating that, between the
2

App. 24

Case 2:17-cr-00487-WKW-WC Document 28 Filed 07/25/18 Page 3 of 11
date of the plea hearing and the date of the sentencing hearing, the defendant, either personally or
through the actions ofthe defense attorney on behalf ofthe defendant, has acted inconsistent with
the acceptance of responsibility.
IV. THE DEFENDANT'S PROVISIONS
3.

The defendant agrees to plead guilty to Count 1 and to make factual admissions of

guilt in open court. The defendant further agrees to waive any right the defendant may have to
subsequently withdraw the guilty plea pursuant to Rule 11(d). The defendant also promises to
refrain from taking any action inconsistent with the defendant's acceptance of responsibility for
the offense to which the defendant is pleading guilty.
4.

The defendant understands that the parties have no agreement regarding any

sentence recommendation that the government may make, or any recommendations the
government may make regarding the calculation ofthe defendant's advisory Guidelines range.
5.

The defendant understands that the defendant will be allowed to withdraw the guilty

plea in the event that the Court does not accept any or all of the provisions set forth pursuant to
Rule 1 1(c)(1)(A).
6.

The defendant agrees not to commit any other federal, state, or local offense while

awaiting sentencing, regardless of whether that offense is charged or chargeable. The defendant
agrees to provide truthful information to Probation and to the Court in all presentence and
sentencing proceedings.
7.

The defendant agrees to pay all fines and restitution imposed by the Court to the

Clerk ofthe Court. The defendant acknowledges that the full fine and restitution amounts shall be
considered due and payable immediately. Ifthe defendant cannot pay the full amount immediately

3

App. 25

Case 2:17-cr-00487-WKW-WC Document 28 Filed 07/25/18 Page 4 of 11
and is placed in custody or under the supervision of Probation at any time, the defendant agrees
that the United States Bureau ofPrisons and Probation will have the authority to establish payment
schedules to ensure payment ofthe fine and restitution. The defendant further agrees to cooperate
fully in efforts to collect any financial obligation imposed by the Court by set-off from federal
payments, execution on non-exempt property, and any other means the government deems
appropriate. The defendant also agrees that the defendant may be contacted by government
officials regarding the collection of any financial obligation imposed by the Court without
notifying the defendant's attorney and outside the presence of the defendant's attorney.
8.

To facilitate the collection of financial obligations imposed in this case, the

defendant agrees to disclose fully all assets in which the defendant has any interest or over which
the defendant exercises control, directly or indirectly, including those held by a spouse, nominee,
or third party. Further, the defendant will, if requested by the government, promptly submit a
completed financial statement to the Office of the United States Attorney for the Middle District
of Alabama in a form the government provides and as the government directs. The defendant
promises that such financial statement and disclosures will be complete, accurate, and truthful.
The defendant expressly authorizes the government to obtain a report on the defendant's credit in
order to evaluate the defendant's ability to satisfy any financial obligation imposed by the Court.
9.

The defendant certifies that the defendant has made no transfer of assets in

contemplation of this prosecution for the purpose ofevading or defeating financial obligations that
are created by this agreement or that may be imposed upon the defendant by the Court. In addition,
the defendant promises that the defendant will make no such transfers in the future.
10.

The defendant agrees to pay the $100 assessment fee on the date of sentencing.

4

App. 26

Case 2:17-cr-00487-WKW-WC Document 28 Filed 07/25/18 Page 5 of 11
11.

The defendant agrees to waive and hereby waives all rights, whether asserted

directly or by a representative, to request or receive from any department or agency of the United
States any records pertaining to the investigation or prosecution of this case, including, but not
limited to, any records that may be sought under the Freedom of Information Act, see 5 U.S.C.
§ 552, or the Privacy Act of 1974, see 5 U.S.C. § 552a.
V. FACTUAL BASIS
12.

The defendant admits the allegations charged in the Indictment and understands

that the nature ofthe charges to which the plea is offered involves proofas to Count 1. Specifically,
the defendant admits the following to be true and correct:
a.

In or about 2010, Garrott opened a federal income tax return preparation

business. The business was located on East South Boulevard in Montgomery, Alabama. At this
business, Garrott prepared federal income tax returns for others. Garrott generally did not accept
payment at the time of service. In most cases, Garrott's customers paid Garrott for doing so by
assigning to Garrott a percentage of whatever tax refunds the customers received. Accordingly,
whenever the Internal Revenue Service (IRS) issued a tax refund to one of Garrott's clients, a
portion ofthat refund would come to Garrott without ever going to the client. Garrott was the only
employee of her business who electronically filed tax returns.
b.

On or about April 1, 2014, Garrott, from her Montgomery office,

electronically transmitted to the IRS a 2013 federal income for one of her clients, D.B. Garrott
had prepared the return. The return claimed that D.B. was entitled to claim $23,751.00 in losses
from a sole proprietorship business. As Garrott then knew, D.B. was not actually entitled to claim
any losses from a sole proprietorship business for calendar year 2013. The IRS subsequently paid

5

App. 27

Case 2:17-cr-00487-WKW-WC Document 28 Filed 07/25/18 Page 6 of 11
a refund to D.B. The IRS would not have issued as large a refund had Garrott not included the
false statement regarding losses from a sole proprietorship business.
c.

Garrott acted with the intent to do something she knew the law forbids.

VI. THE DEFENDANTS WAIVER OF APPEAL AND COLLATERAL ATTACK
13.

Understanding that 18 U.S.C. § 3742 provides for appeal by a defendant of the

sentence under certain circumstances, the defendant expressly waives any and all rights conferred
by 18 U.S.C. § 3742 to appeal the conviction or sentence. The defendant further expressly waives
the right to attack the conviction or sentence in any post-conviction proceeding, including
proceedings pursuant to 28 U.S.C. § 2255. Exempt from this waiver is the right to appeal or
collaterally attack the conviction or sentence on the grounds ofineffective assistance of counsel or
prosecutorial misconduct.
14.

In return for the above waiver by the defendant, the government does not waive its

right to appeal any matter related to this case, as set forth at 18 U.S.C. § 3742(b). However, if the
governrnent decides to exercise its right to appeal, the defendant is released from the appeal waiver
and may pursue any appeal pursuant to 18 U.S.C. § 3742(a).
VII. BREACH OF THE PLEA AGREEMENT
15.

The parties agree that the issue of whether either party has breached this agreement

at any time is one that will be resolved by the Court by a preponderance of the evidence, except as
set forth in paragraph 17. The parties agree that, should either party obtain information causing
the party to develop a good faith belief that the other party has breached this agreement, then the
party will promptly file a written motion—or make an oral motion if doing so would be more
expedient—asking that the Court declare the other party to be in breach of the plea agreement.

6

App. 28

Case 2:17-cr-00487-WKW-WC Document 28 Filed 07/25/18 Page 7 of 11
16.

The parties agree that, a breach of the plea agreement by the defendant would

include, but not be limited to: (1)failing to fulfill each of the defendant's obligations under this
plea agreement;(2) committing new criminal conduct; or (3) seeking to withdraw the guilty plea
or otherwise engaging in conduct inconsistent with an acceptance of responsibility. Should the
Court find the defendant to have breached this agreement:(1) the government will be free from its
obligations under this agreement; (2) the defendant will not be permitted to withdraw the guilty
plea; (3)the defendant's obligations and waivers under this agreement will remain in full force
and effect;(4) the defendant will be subject to prosecution for other crimes; and(5) the government
will be free to use against the defendant, directly and indirectly, in any criminal or civil proceeding,
all statements by the defendant and any information or materials provided by the defendant,
including statements made during the plea hearing and all statements made by the defendant
pursuant to proffer letters.
17.

The parties agree that, in the event that the defendant breaches this agreement by

committing new criminal conduct, the government will be required to only establish probable
cause to believe that the defendant committed a new criminal offense for the Court to find the
defendant in breach of the plea agreement.
18.

The parties agree that, should the Court find the government in breach of this plea

agreement, the defendant may cancel this agreement and thus be released from the appellate and
collateral attack waivers. The parties further agree that a breach of the plea agreement by the
government will not automatically entitle the defendant to withdraw the guilty plea and, if the
defendant should seek to withdraw the guilty plea on the basis ofsuch a breach, then the defendant
will be required to file a motion pursuant to Rule 11(d).

7

App. 29

Case 2:17-cr-00487-WKW-WC Document 28 Filed 07/25/18 Page 8 of 11
WEL THE DEFENDANT'S ACKNOWLEDGEMENTS
19.

The defendant understands that the Court is neither a party to nor bound by this

agreement. The defendant understands and acknowledges that, although the parties are permitted
to make recommendations and present arguments to the Court, the Court will determine the
advisory Guidelines range and the sentence. The defendant acknowledges that the defendant and
the defendant's attomey have discussed the advisory Guidelines and the statutory sentencing
factors set forth at 18 U.S.C. § 3553(a) and the defendant understands how those provisions may
apply in this case. The defendant further understands that the defendant will have no right to
withdraw a guilty plea on the basis that the Court calculates an advisory Guidelines range that
differs from the range projected by the defense attomey or the government.
20.

The defendant acknowledges that the defendant authorized and consented to the

negotiations between the government and the attomey for the defendant that led to this agreement.
21.

The defendant understands that: (1)in pleading guilty, the defendant may be

required to make statements under oath; and (2) the government has a right to use against the
defendant, in a prosecution for perjury or for making a false statement, any statement that the
defendant makes. However, as the defendant understands, the govemment may not use as
evidence against the defendant in any future proceeding involving the charges alleged in the
Indictment or related offenses, the defendant's guilty plea if the Court permits the defendant to
withdraw that guilty plea.
22.

The defendant understands that if the defendant pleads guilty pursuant to this

agreement and the Court accepts that guilty plea, the defendant will waive certain rights, namely:
(1)the right to plead not guilty or to persist in a plea of not guilty; (2)the right to a jury trial;

8

App. 30

Case 2:17-cr-00487-WKW-WC Document 28 Filed 07/25/18 Page 9 of 11
(3)the right to be represented by counsel—and if necessary to have the Court appoint counsel—
at trial and at every other stage of the proceeding; and (4) the right at trial to confront and crossexamine adverse witnesses, to be protected from compelled self-incrimination, to testify and
present evidence, and to compel the attendance of witnesses.
23.

The defendant understands:(1)the nature of each charge to which the defendant is

pleading guilty;(2)the maximum and minimum penalties associated with each charge to which
the defendant is pleading guilty, including imprisonment, fine, and a term of supervised release;
(3) any applicable mandatory minimum penalty associated with a charge to which the defendant
is pleading guilty; (4) any applicable forfeiture provision applicable to a charge to which the
defendant is pleading guilty; (5)the Court's authority to order restitution; and (6) the Court's
obligation to impose a special assessment.
24.

The defendant confirms that the entirety of any agreement between the defendant

and the government is as set forth in this agreement and any addendum to this agreement and that
the government has not made any promises to the defendant other than those contained in this
agreement and any addendum to this agreement. This agreement consists of 11 pages and 29
paragraphs and an addendum.
25.

The defendant confirms that counsel has competently and effectively represented

the defendant throughout the proceedings leading to the entry of a guilty plea. The defendant is
satisfied with such representation.
26.

The defendant enters this plea agreement and pleads guilty freely and voluntarily.

That is, the defendant acts without being influenced by any threats, force, intimidation, or coercion
of any kind.

9

App. 31

Case 2:17-cr-00487-WKW-WC Document 28 Filed 07/25/18 Page 10 of 11
27.

The defendant understands that this agreement binds only the Office ofthe United

States Attorney for the Middle District of Alabama and that the agreement does not bind any other
component of the United States Department of Justice, nor does it bind any state or local
prosecuting authority.
IX. THE ATTORNEYS'ACKNOWLEDGEMENTS
28.

The attorneys for the government and for the defendant acknowledge that this plea

agreement contains the entirety of any agreement between the parties and that the parties reached
this plea agreement in accordance with the procedure set forth at Rule 11.
29.

The attorney for the defendant confirms that the attorney for the defendant advised

the defendant of:(1)the nature of the charges to which the defendant is pleading guilty;(2)the
penalties associated with those charges;(3) the rights that the defendant is waiving by pleading
guilty; and (4)the possibility that statements made by the defendant under oath during a plea
hearing may be used against the defendant in a subsequent prosecution for perjury or for making
a false statement.
This g

44"- day of

Jt

,2018.
Respectfully submitted,
LOUIS V. FRANKLIN,SR.
UNITED STATES ATTORNEY

Jonat n S. Ross
Assistant United St es Attorney
10

App. 32

Case 2:17-cr-00487-WKW-WC Document 28 Filed 07/25/18 Page 11 of 11

LaQuan-da Gilmore Garrott
Defendant

Cecilia Vaca
Attomey for the Defendant

11

App. 33

1

1

IN THE UNITED STATES DISTRICT COURT

2

FOR THE MIDDLE DISTRICT OF ALABAMA

3

NORTHERN DIVISION

4
5
6
7
8

UNITED STATES OF AMERICA,
vs.

CASE NO.:

2:17cr487-WKW

LAQUANDA GILMORE GARROTT,
Defendant.

9
10
* * * * * * * * * * *
11
SENTENCING PROCEEDINGS (NOT HELD)
12
* * * * * * * * * * *
13
BEFORE THE HONORABLE W. KEITH WATKINS, UNITED STATES
14
DISTRICT JUDGE, at Montgomery, Alabama, on Wednesday, January
15
16, 2019, commencing at 2:41 p.m.
16
APPEARANCES:
17
FOR THE GOVERNMENT:

Mr. Jonathan S. Ross
Assistant United States Attorney
OFFICE OF THE UNITED STATES ATTORNEY
131 Clayton Street
Montgomery, Alabama 36104

FOR THE DEFENDANT:

Ms. Cecilia Vaca
Assistant Federal Defender
FEDERAL DEFENDERS
MIDDLE DISTRICT OF ALABAMA
817 South Court Street
Montgomery, Alabama 36104

18
19
20
21
22
23
24

Proceedings reported stenographically;
transcript produced by computer.

25
* * * * * * * * * * *
Risa L. Entrekin, RDR, CRR, Official Court Reporter
U.S. District Court, Middle District of Alabama
One Church Street, Montgomery, Alabama 36104 * 334.240.2405

App. 34

2

1

(The following proceedings were heard before the Honorable

2

W. Keith Watkins, United States District Judge, at

3

Montgomery, Alabama, on Wednesday, January 16, 2019,

4

commencing at 2:41 p.m.:)

5
6

THE COURT:

All right.

The next case is United States

versus LaQuanda Gilmore Garrott, 17cr487.

7

Let's take appearance for the government first.

8

MR. ROSS:

9

Jonathan Ross on behalf of the United

States.

10

THE COURT:

11

And for the defendant?

12

MS. VACA:

13

Good afternoon.

Yes, Your Honor, Cecilia Vaca.

I'm

appearing for LaQuanda Garrott.

14

THE COURT:

Good afternoon, Ms. Vaca.

15

And good afternoon, Ms. Garrott.

16

I filed a notice in this case about the plea agreement.

17

And as the parties know -- or the lawyers know, it's my

18

practice, when I reject a plea agreement or a plea agreement

19

provision, that I give the parties an opportunity for a recess

20

to consider their options.

21

there's another reason I want to do that.

22

information has come in that's not -- that was not in the

23

presentence report and I haven't had a chance to evaluate it.

24

I'm not sure, because I don't know the exact nature of it,

25

whether it's going to be included in the report as an amendment

And I'm going to do that, but today
And that is that new

Risa L. Entrekin, RDR, CRR, Official Court Reporter
U.S. District Court, Middle District of Alabama
One Church Street, Montgomery, Alabama 36104 * 334.240.2405

App. 35

3

1
2

or as an addendum or not at all.

It may not be relevant.

So we are facing, per charge -- or at least per the

3

charge of conviction, if I accepted the plea agreement, a

4

statutory maximum of 36 months.

5

will not accept that plea agreement at the moment -- I might

6

sentence within that; I just don't -- I won't be bound to it --

7

is because of the extensive criminal history, over 11 years,

8

of -- well, many years, with 79 bad check cases over the last 11

9

years and other offenses and I think some more recent ones I

10
11

The reason I don't accept and

didn't know about.
So for that reason, Ms. Garrott, I am rejecting the

12

plea agreement at this time in your case.

13

particularly rejecting is the dismissal of all the charges

14

except for the one count.

15

I'm going to continue the case.

And the provision I'm

And I would ask

16

counsel for Ms. Garrott to consult with the government and let

17

me know how you wish to proceed within the next two weeks, and

18

then I will reset the matter for a hearing at that time.

19

MS. VACA:

20

THE COURT:

21

MS. VACA:

Yes, Your Honor.
Okay?
Yes.

And so just for clarification, this

22

information that you're saying -- this new information coming

23

forward, will that be made available to me?

24
25

THE COURT:

It will be.

modification, if it's relevant.

It will be an addendum or a
It may not -- it may be totally

Risa L. Entrekin, RDR, CRR, Official Court Reporter
U.S. District Court, Middle District of Alabama
One Church Street, Montgomery, Alabama 36104 * 334.240.2405

App. 36

4

1

irrelevant or it may have been covered somewhere else, but I'll

2

instruct the probation officer to be open with you about it.

3

it doesn't appear as an addendum or as a modified agreement -- I

4

mean -- I'm sorry -- a modified PSR, then you can ask her.

5

her and she'll tell you what it was about.

6

MS. VACA:

Understood.

7

THE COURT:

All right?

8

MS. VACA:

9

Thank you.

Yes.

THE COURT:

The case will be reset for February 21st at

what time?

12

THE CLERK:

Two o'clock.

13

THE COURT:

At two o'clock.

14

If that's not appropriate

for either one of you, just let me know.

15

MS. VACA:

16

THE COURT:

17

MS. VACA:

18

THE COURT:

19

Call

(Off-the-record discussion)

10
11

If

Yes, Your Honor.
We'll cooperate with you.

Okay?

Thank you, Your Honor.
We're adjourned in this case until that

time.

20

(Proceedings concluded at is 2:46 p.m.)

21

* * * * * * * * * * *

22
23
24
25
Risa L. Entrekin, RDR, CRR, Official Court Reporter
U.S. District Court, Middle District of Alabama
One Church Street, Montgomery, Alabama 36104 * 334.240.2405

App. 37

5

1
2
3
4

COURT REPORTER'S CERTIFICATE
I certify that the foregoing is a correct transcript
from the record of proceedings in the above-entitled matter.
This 19th day of September, 2019.

5
6
7

/s/ Risa L. Entrekin
Registered Diplomate Reporter
Certified Realtime Reporter
Official Court Reporter

8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
Risa L. Entrekin, RDR, CRR, Official Court Reporter
U.S. District Court, Middle District of Alabama
One Church Street, Montgomery, Alabama 36104 * 334.240.2405

App. 38

Case 2:17-cr-00487-WKW-WC Document 67 Filed 02/20/19 Page 1 of 9

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF ALABAMA
NORTHERN DIVISION
UNITED STATES OF AMERICA
v.
LAQUANDA GILMORE
GARROTT

)
)
)
)
)
)

CASE NO. 2:17-CR-487-WKW
(WO)

MEMORANDUM OPINION AND ORDER
This is a case where the time does not fit the crime; or, more specifically, the
offender.

LaQuanda Gilmore Garrott was charged in a November 1, 2017

indictment with ten counts of aiding and assisting in the filing of false federal
income tax returns in violation of 26 U.S.C. § 7206(2). Each count carries a
statutory maximum sentence of 3 years’ imprisonment and a $100,000 fine. See 26
U.S.C. § 7206. Per a plea agreement under Federal Rule of Criminal Procedure
11(c)(1)(A), Garrott pleaded guilty to only one of those counts. (Doc. # 28.) The
government promised to move to dismiss the other nine counts at sentencing.
When it came time for sentencing, it became clear that this plea agreement
would result in an unreasonable sentence.

The presentence report revealed

Garrott’s extensive criminal history, including no less than eighty-seven previous
convictions, detailed below. With a total offense level of 22 and a criminal history
category of III, Garrott’s guidelines range would have been 51 to 63 months,
without an acceptance-of-responsibility reduction. But because she pleaded guilty

App. 39

Case 2:17-cr-00487-WKW-WC Document 67 Filed 02/20/19 Page 2 of 9

to just one count, the plea agreement limits Garrott’s sentence to no more than the
statutory maximum of 36 months’ imprisonment.
This court has a duty to “impose a sentence sufficient, but not greater than
necessary, to comply” with the statutory purposes of sentencing.

18 U.S.C.

§ 3553(a). These purposes include the need for the sentence imposed “to reflect
the seriousness of the offense, to promote respect for the law, and to provide just
punishment for the offense,” see id. § 3553(a)(2)(A), “to afford adequate
deterrence to criminal conduct,” see id. § 3553(a)(2)(B), and “to protect the public
from further crimes” of Garrott, see id. § 3553(a)(2)(C). In evaluating whether the
sentence furthers these purposes, the court must consider “the nature and
circumstances of the offense and the history and characteristics” of Garrott. See id.
§ 3553(a)(1).
Considering Congress’s sentencing mandate and the history and
characteristics of Garrott, the court is convinced that a sentence of 36 months
would not merely be unreasonable but would be outright irrational.

The

presentence report showed that Garrott has seventy-nine convictions for writing
bad checks, four for theft, one for reckless endangerment, one for domestic
violence and harassment, one for giving a false name to law enforcement, and one
for driving with a revoked license and using a license plate to conceal one’s
identity. So far, however, Garrott has managed to serve, by the court’s estimation,
2

App. 40

Case 2:17-cr-00487-WKW-WC Document 67 Filed 02/20/19 Page 3 of 9

only 13 days’ custody on those prior convictions, not counting 30 days served on a
probation revocation. Fourteen of Garrott’s custodial sentences were suspended.
Garrott was ordered to pay restitution at least twelve times, and still owes at least
$6,680.71 in unpaid restitution. Additionally, the court calculates that Garrott has
been in the criminal justice system — by serving probation, by being subject to an
unpaid restitution order, or, for most of the time, both — uninterrupted, from
September 23, 2003, to the present.1 The sheer volume of criminal conduct, as
well as its nature — rife with falsity and fraud — demonstrates the impropriety of
a 36-month sentence.
More than criminal history is relevant here. Garrott’s relevant conduct,
according to the presentence report, is much more serious than the ten pending
charges suggest. Garrott submitted returns under three different electronic filing
identification numbers (EFIN), filed approximately 100 false tax returns —
totaling $674,372 in fraudulent refunds — which were all paid out by the IRS.
Put simply, 36 months’ imprisonment would thwart the purposes of
§ 3553(a). With the guidelines in play, Garrott’s guidelines range would be as
high as 51 to 63 months, depending on whether she receives an acceptance-ofresponsibility reduction. Such a properly calculated guidelines sentence may be
presumed reasonable on appeal. See Rita v. United States, 551 U.S. 338, 347

1

An analysis of Garrott’s criminal history is included below as the court’s Exhibit A.
3

App. 41

Case 2:17-cr-00487-WKW-WC Document 67 Filed 02/20/19 Page 4 of 9

(2007). And were all ten counts in play, Garrott would potentially be facing a 30year maximum sentence.
If Garrott wishes to withdraw her plea, the court will set a date for the next
Montgomery trial term. The court expresses no view on either the weight or the
nature of the evidence against Garrott, see United States v. Diaz, 138 F.3d 1359,
1363 (11th Cir. 1998), abrogated on other grounds by United States v. Davila, 569
U.S. 597 (2013), or what sentence Garrott would receive if she were found guilty
on some or all of the ten counts, see United States v. Bruce, 976 F.2d 552, 555–58
(9th Cir. 1992), abrogated on other grounds by United States v. Davila, 569 U.S.
597 (2013). But it is not inappropriate for the court to express its view that a
particular sentence is too lenient: “A decision that a plea bargain will result in the
defendant’s receiving too light a sentence under the circumstances of the case is a
sound reason for a judge’s refusing to accept the agreement.” United States v.
Bean, 564 F.2d 700, 704 (5th Cir. 1977).
Finally, Garrott’s belated motion for a status conference warrants brief
mention. Garrott, through counsel, sought a status conference so the “parties can
discuss with the Court its concerns regarding the first plea agreement in order to
try to fashion a new plea agreement or decide to go to trial.” (Doc. # 63.) Two
things should be said in response. First, the court made its view of a 36-month
sentence clear at the January 16, 2019 hearing when it brought up Garrott’s
4

App. 42

Case 2:17-cr-00487-WKW-WC Document 67 Filed 02/20/19 Page 5 of 9

extensive criminal history, including seventy-nine bad check convictions. Second,
this motion borders on an invitation for the court to engage in plea negotiations,
which of course it cannot do. See Fed. R. Crim. P. 11(c)(1). The court declines to
say what an appropriate sentence is in this case. It will only say that 36 months’
imprisonment is inappropriate, for the reasons described.
Relatedly, Garrott did not follow the court’s instructions in the January 16,
2019 hearing. After rejecting the plea agreement, the court asked Garrott and her
counsel to talk to the government and notify the court of her intentions within two
weeks. Garrott did not do so. Instead, she filed the motion for status conference
less than a week before the rescheduled sentencing. The court needs to know
Garrott’s intentions so it can determine how to proceed.
Accordingly, it is ORDERED that Garrott is directed to confer with the
government and file a written notice with the court on or before March 6, 2019,
stating whether she still intends to plead guilty or wants to go to trial.2
DONE this 20th day of February, 2019.
/s/ W. Keith Watkins
UNITED STATES DISTRICT JUDGE

Another binding plea agreement — under Rule 11(c)(1)(A) or (c)(1)(C) — after a
binding plea agreement has been rejected, would most likely be viewed as a guess as to what the
judge is thinking, or bait to catch the best deal. Until there is a sentencing hearing, the court
maintains, as it should, an open mind as to what constitutes a reasonable sentence.
2

5

App. 43

Case 2:17-cr-00487-WKW-WC Document 67 Filed 02/20/19 Page 6 of 9

EXHIBIT A
LaQuanda Gilmore Garrott
Criminal History Summary

Conviction

No. of Counts

Reckless
Endangerment
(1/3/03)

1

False Name to LE
(2/19/03)
DV / Harassment
(5/7/03)
Theft 3rd
(6/11/03)
Theft 3rd
(9/23/03)
Bad Check
(7/23/04)
Bad Check
(11/4/04)

1

Bad Check
(9/10/04)

No. of
FTP/FTA

Probation?

Custody?

Probation
Revoked?

30 days
custody,
split, 5 days
imposed

Restitution?

$250

Informal

1

Fine?

Yes
30 days,
suspended

Yes

1

Yes

1
11

4 FTP

1

1 FTP

9

2 FTA

1 year
unsupervised
1 year

10 days,
suspended
12 months,
suspended

Yes
Yes
Yes

1 year

12 months,
suspended

Extended 6
months, then
removed
early

Yes, paid in
full 3/21/13
Yes, paid in
full
7/19/2010
Yes, paid in
full
5/3/2013

App. 44

Case 2:17-cr-00487-WKW-WC Document 67 Filed 02/20/19 Page 7 of 9

Bad Check
(10/3/08)
Bad Check
(9/9/09)
Bad Check
(1/12/10)
Bad Check
(6/22/12)
Theft 3rd
(7/25/12)
Theft 3rd
(8/22/17)

11

1 year

1

2 years

Bad Check
(8/10/16)
DWR/License
Plate/Window
Tint
(1/5/17)

4

Bad Check
(5/14/18)
Bad Check
(5/14/18)
Bad Check
(5/14/18)
Bad Check
(5/14/18)

10

5

1 FTA

3

1 FTP

1

2 years
unsupervised
3 years

1

1

10
10
4

2 years

1 FTP, 1 FTA

1 year,
suspended
1 year,
suspended
30 days,
suspended
1 day (time
served)
1 year,
suspended
24 months,
suspended

2 years
unsupervised
1 year

1 year,
suspended
7 days, time
served

10 years
unsupervised
10 years
unsupervised
10 years
unsupervised
10 years
unsupervised

1 year,
suspended
1 year,
suspended
1 year,
suspended
1 year,
suspended

Extended 6
months

Yes
Yes
Yes, owes
$2,042.76
$500
Yes

Yes, 30 days Yes
custody;
another
revocation
hr’g
scheduled

Yes, paid in
full 2/11/13
Yes, owes
$2,289

Yes, owes
$2,348.95
Violation
affidavit
filed,
warrant
issued

Yes

Yes

Yes

Yes

Yes

Yes

Yes

Yes

Yes

App. 45

Case 2:17-cr-00487-WKW-WC Document 67 Filed 02/20/19 Page 8 of 9

TOTALS

79 bad check
4 theft
(shoplifting)
1 reckless
endangerment
1 DV /
harassment
1 false name to
law
enforcement
1 driving while
revoked, using
license plate to
conceal identity,
window tint
violation

7 failures to
pay
4 failures to
appear

56 years
probation
(aggregate;
some terms
effectively
run
concurrently)

14
suspended
sentences

Probation
extended
twice

13 days on
all counts +
30 days on
probation
revocation =

Revoked
once,
another
revocation
hr’g
scheduled
for same
probation

43 days
total time
served

$750+
(unclear
from the
record)

Currently
owes
$6,680.71
in unpaid
restitution

Violation
affidavit
filed and
warrant
issued in
another

87 total
convictions in
15 years

App. 46

Case 2:17-cr-00487-WKW-WC Document 67 Filed 02/20/19 Page 9 of 9

Reckless
Endangerment
1/3/03

DV /
Harassment
5/7/03

Bad
Check
(11X)
10/3/08

Bad Check
(9X)
9/10/04

Theft 3rd
9/23/03

1 yr probation starting 9/10/04, +
unpaid restitution

1 yr probation

False
Name to
Law
Enfor.
2/19/03

Driving w/
Revoked
Use of
License
Plate to
Conceal ID
Window
Tint
Violation
1/5/17

Bad Check
(3X)
6/22/12
2 yrs probation +
unpaid restitution

Bad
Check
(11X)
7/23/04

Theft
3rd
6/11/03

Bad Check
(4X)
8/10/16

KEY:
RED: Crime involved violence
BLUE: Crime involved falsity/fraud
GREEN: Property crimes

Bad Check
(10X)
5/14/18

Bad
Check
11/4/04

Bad
Check
9/9/09

Bad Check
(4X)
5/14/18

2 yrs probation starting 8/22/17 +
unpaid restitution

2 yrs probation starting
7/25/12 + unpaid restitution

Theft 3rd
7/25/12

Bad Check
(5X)
1/12/10

Theft 3rd
8/22/17

Bad Check
(10X)
5/14/18

Bad Check
(10X)
5/14/18

The four sets of bad-check
convictions on 5/14/18,
although sentenced on the same
day, are based on separate
conduct and appear to arise out
of four separate charging
instruments.

App. 47

1

1

IN THE UNITED STATES DISTRICT COURT

2

FOR THE MIDDLE DISTRICT OF ALABAMA

3

NORTHERN DIVISION

4
5
6
7
8

UNITED STATES OF AMERICA
vs.

CASE NO.: 2:17cr487-WKW

LAQUANDA GILMORE GARROTT,
Defendant.

9

* * * * * * * * * * * * * * *

10

CHANGE OF PLEA (Not held)

11

* * * * * * * * * * * * * * *

12

BEFORE THE HONORABLE W. KEITH WATKINS, UNITED STATES

13

DISTRICT JUDGE, at Montgomery, Alabama, on Monday, April 29,

14

2019, commencing at 9:43 a.m.

15
16

APPEARANCES
FOR THE GOVERNMENT:

Mr. Jonathan S. Ross
Ms. Alice S. LaCour
Assistant United States Attorneys
OFFICE OF THE UNITED STATES ATTORNEY
131 Clayton Street
Montgomery, Alabama 36104

FOR THE DEFENDANT:

Ms. Cecilia Vaca
FEDERAL DEFENDERS
MIDDLE DISTRICT OF ALABAMA
817 South Court Street
Montgomery, Alabama 36104

17
18
19
20
21
22
23

Proceedings reported stenographically;

24

transcript produced by computer

25
PATRICIA G. STARKIE, RDR, CRR, OFFICIAL COURT REPORTER
U.S. District Court, Middle District of Alabama
One Church Street, Montgomery, AL 36104 334.262.1221 App.

48

2

1

(The following proceedings were heard before the

2

Honorable W. Keith Watkins, United States District Judge, at

3

Montgomery, Alabama, on Monday, April 29, 2019, commencing at

4

9:43 a.m.)

5

(Call to Order of the Court)

6

THE COURT:

We're here this morning in United States

7

versus LaQuanda Gilmore Garrott, 17cr487.

8

appearances for the government first.

9

MR. ROSS:

10

the United States.

11

THE COURT:

12

MS. VACA:

13
14
15
16

Let's take

Jonathan Ross and Alice LaCour on behalf of

Good morning.

And for the defendant?

Good morning, Your Honor.

Cecilia Vaca.

I'm appearing for Ms. Garrott.
THE COURT:

All right.

Okay.

We're not going to be

long this morning.
Under Rule 11(c)(5)(B) of the Federal Rules of Criminal

17

Procedure, the Court is not required to accept the plea

18

agreement.

19

government of the Court's intent to reject the modified or new

20

plea agreement.

21

This notice serves to inform the defendant and the

The plea was withdrawn on March the 18th.

A notice

22

of -- or 16th.

A notice of intent to change plea was filed on

23

April the 17th or so.

24

It's either going to trial, or if y'all want a continuance, you

25

need to agree to it, and I would grant it.

This case is set for trial next Tuesday.

Or the third option

PATRICIA G. STARKIE, RDR, CRR, OFFICIAL COURT REPORTER
U.S. District Court, Middle District of Alabama
One Church Street, Montgomery, AL 36104 334.262.1221 App.

49

3

1

is we can strike a jury Tuesday and come back and try the case

2

in a few weeks.

3

I thought I made it clear in my order that another

4

binding plea agreement would be seen as manipulating the Court.

5

That's the way I see it.

6

Rule 11 says I don't participate in any of your plea

7

negotiations.

8

Court must not participate."

9

That's a boxed-in, binding plea.

10

I'm not going to participate in it.

The Court must not -- directly quoting -- "The
I'm boxed in with an 11(c)(1)(A).

The second one is a (c)(1)(C) at the bottom end of the

11

guideline range.

12

going to be bound to give that sentence.

13

accept the plea agreement -- a plea under those circumstances.

14
15
16

While I might give that sentence, I'm not

Now, do y'all want to talk?
record, Mr. Ross?
MR. ROSS:

17

moment, Your Honor.

18

THE COURT:

19
20

So I'm not going to

Do you want to go on the

What do you want to do?
If you would give Ms. Vaca and I just a

Go ahead.

(Brief pause in the proceedings)
MS. VACA:

Your Honor, I think that we're going to --

21

I'm going to need to meet with Ms. Garrott and determine what

22

she would like to do so I could communicate that with the -- to

23

the government regarding, I guess, whether we're going to go to

24

trial in a couple weeks or what else we could possibly do.

25

And, Your Honor, I mean, I did want to -- I think I
PATRICIA G. STARKIE, RDR, CRR, OFFICIAL COURT REPORTER
U.S. District Court, Middle District of Alabama
One Church Street, Montgomery, AL 36104 334.262.1221 App.

50

4

1

did, I guess, note in our notice of intent to change plea, Your

2

Honor, there had been a change in circumstances.

3

that kind of impacted our new plea negotiations in that

4

Ms. Garrott, since the time that we came before the Court the

5

previous time, had been revoked in a state court case, and she's

6

serving a two-year sentence on that case, Your Honor.

7

obviously, she was pleading guilty to two counts, which,

8

obviously, allowed the Court to entertain a sentence that was

9

actually in the guideline range rather than below based on her

10

pleading to one count.

11

that two-year sentence.

12

So I guess

And now,

So the defendant's currently serving

I just wanted to explain, Your Honor, that we weren't

13

trying to -- I don't know -- circumvent what the Court was

14

trying to accomplish, but there had been that change in

15

circumstances for her.

16

Your Honor --

And I think Mr. Ross, rightfully, wants to figure out

17

whether we're going to go to trial.

18

Ms. Garrott about what she intends to do.

19

THE COURT:

All right.

But I need to speak with
I think --

I need to know by Wednesday

20

noon what you-all want to do.

And you need to file something.

21

Because, actually, the jury is coming in a week from tomorrow.

22

It's not two weeks.

23

mistaken.

It's a week from tomorrow, if I'm not

24

Is that right, Mr. Ross?

25

MR. ROSS:

Yes, Your Honor.

The government will be

PATRICIA G. STARKIE, RDR, CRR, OFFICIAL COURT REPORTER
U.S. District Court, Middle District of Alabama
One Church Street, Montgomery, AL 36104 334.262.1221 App.

51

5

1

ready Tuesday.

2

THE COURT:

3

MR. ROSS:

4

THE COURT:

5

MR. ROSS:

7

THE COURT:

9

We'll be ready Tuesday.
Oh, this coming Tuesday?

All right.

You

said that really quickly.

6

8

Will be ready what?

Sorry.
So the government's position is they're

ready to strike a jury Tuesday.
MS. VACA:

That's fine, Your Honor.

I mean, if that's

10

what -- if Ms. Garrott intends to proceed to trial, we will do

11

so on the scheduled date.

12

there is, Your Honor, I guess, other than her pleading guilty to

13

all of the counts in the indictment.

14

inform the Court as soon as I speak with Ms. Garrott.

15
16

THE COURT:

But I don't know what other option

So, Your Honor, I will

I mean, there's always a (B).

know -- that's what most courts do is a (B).

I don't

I'm just saying.

17

MR. ROSS:

18

counts, the (A) provision.

19

any agreement -- she only pled to three counts.

20

have to be an agreement on our part to dismiss the other seven.

21
22
23

THE COURT:

Your Honor, the problem is the additional
The (A) provision is binding, and
There would

I'm not sure I understand what you're

saying in conjunction with a (B) plea?
MR. ROSS:

Your Honor, there's -- the sentence

24

recommendation in (B), the (A) provision is purely an agreement

25

to dismiss counts.

And so if Ms. Garrott were to do anything

PATRICIA G. STARKIE, RDR, CRR, OFFICIAL COURT REPORTER
U.S. District Court, Middle District of Alabama
One Church Street, Montgomery, AL 36104 334.262.1221 App.

52

6

1

other than plead to all ten counts, she would have to do so upon

2

some expectation from the government that it would dismiss the

3

counts that she did not plead to, which would be the binding (A)

4

provision.

5

THE COURT:

6

MS. VACA:

7

THE COURT:

8

I understand that.
I think that -That doesn't -- but that doesn't -- whether

she pleads to one or ten isn't going to affect the sentence --

9

MR. ROSS:

Yes, Your Honor.

10

THE COURT:

-- is my point.

This is all about

11

sentencing.

12

don't want to be manipulated into caps, bottoms, whatever, when

13

I've told you once that this is a serious case.

14

And sentencing is the Court's prerogative, and I

MS. VACA:

Your Honor, I'm not trying to get the Court

15

to engage in the plea negotiation here, but I guess I'm trying

16

to figure out if the biggest issue with the plea agreement that

17

we've submitted to the Court was the 11(c)(1)(C) provision.

18

THE COURT:

I can't participate in those discussions.

19

I just -- I'm just telling you that this isn't driven by how

20

many counts that she pleads to.

21

reasonable sentence.

22

MR. ROSS:

23

THE COURT:

It's driven by what is a

Yes, Your Honor.
And for the conduct, which is serious, and

24

for her criminal history, which is very serious.

25

characteristics.

History and

PATRICIA G. STARKIE, RDR, CRR, OFFICIAL COURT REPORTER
U.S. District Court, Middle District of Alabama
One Church Street, Montgomery, AL 36104 334.262.1221 App.

53

7

1

So if you want to go to trial next Tuesday, which is

2

fine with me, we'll be -- I'm ready to go.

If you want to

3

strike the jury next Tuesday and come back in a couple of weeks

4

or three weeks, I don't know when I would fit it in.

5

How long would the trial take, Mr. Ross?

6

MR. ROSS:

No more than three days, Your Honor.

7

THE COURT:

Do you agree with that, Ms. Vaca?

8

MS. VACA:

9

THE COURT:

Yes, Your Honor.
So that's the answer I want by Wednesday,

10

whether you want to try -- because I need to block -- change

11

some things on my calendar and block it off.

12

hear from you by Wednesday noon or by then.

13

MR. ROSS:

And so I want to

The government's position on that would be

14

if we were going to trial, our preference would be to try it on

15

Tuesday.

16
17

THE COURT:

Are you going to oppose a motion for

continuance by the defendant?

18

MR. ROSS:

Yes, Your Honor.

19

THE COURT:

Okay.

20

All right.

So if there's any change -- if I don't hear

That makes it pretty clear.

21

from anybody by Wednesday noon, if I don't hear from you

22

Wednesday noon, then we're going to trial next Tuesday.

23

MR. ROSS:

Yes, Your Honor.

24

MS. VACA:

Yes.

25

THE COURT:

Okay?

All right.

We're adjourned.

PATRICIA G. STARKIE, RDR, CRR, OFFICIAL COURT REPORTER
U.S. District Court, Middle District of Alabama
One Church Street, Montgomery, AL 36104 334.262.1221 App.

54

8

1

(Proceedings concluded at 9:43 a.m.)

2

* * * * * * * * * * * * *

3

COURT REPORTER'S CERTIFICATE

4
5
6

I certify that the foregoing is a correct transcript
from the record of the proceedings in the above-entitled matter.
This 18th day of September, 2019.

7
8
9

/s/ Patricia G. Starkie
Registered Diplomate Reporter
Certified Realtime Reporter
Official Court Reporter

10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
PATRICIA G. STARKIE, RDR, CRR, OFFICIAL COURT REPORTER
U.S. District Court, Middle District of Alabama
One Church Street, Montgomery, AL 36104 334.262.1221 App.

55

Case 2:17-cr-00487-WKW-WC Document 111 Filed 05/28/19 Page 1 of 4

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF ALABAMA
NORTHERN DIVISION
UNITED STATES OF AMERICA
v.
LAQUANDA GILMORE
GARROTT

)
)
)
)
)
)

CASE NO. 2:17-CR-487-WKW

MEMORANDUM OPINION AND ORDER
At the close of the government’s case-in-chief, Defendant moved for
judgment of acquittal on Counts 1 and 2 under Federal Rule of Criminal Procedure
29. The court reserved ruling on the motion until after the verdict. See Fed. R.
Crim. P. 29(b). For the reasons below, that motion will be granted.
A Rule 29 motion for judgment of acquittal “is a direct challenge to the
sufficiency of the evidence presented against the defendant.” United States v.
Aibejeris, 28 F.3d 97, 98 (11th Cir. 1994). “Evidence is sufficient to support a
conviction ‘if a reasonable trier of fact could find that the evidence established
guilt beyond a reasonable doubt.’” United States v. Maxwell, 579 F.3d 1282, 1299
(11th Cir. 2009) (quoting United States v. Calhoon, 97 F.3d 518, 523 (11th Cir.
1996)).

The court “view[s] the evidence in the light most favorable to the

government and resolve[s] all reasonable inferences and credibility evaluations in
favor of the jury’s verdict.” United States v. Robertson, 493 F.3d 1322, 1329 (11th

App. 56

Case 2:17-cr-00487-WKW-WC Document 111 Filed 05/28/19 Page 2 of 4

Cir. 2007) (quoting United States v. Tinoco, 304 F.3d 1088, 1122 (11th Cir.
2002)).
“The evidence need not exclude every reasonable hypothesis of innocence or
be wholly inconsistent with every conclusion except that of guilt.” Id. (quoting
Tinoco, 304 F.3d at 1122). “The test for sufficiency of evidence is identical
regardless of whether the evidence is direct or circumstantial, and no distinction is
to be made between the weight given to either direct or circumstantial evidence.”
United States v. Mieres-Borges, 919 F.2d 652, 656–57 (11th Cir. 1990) (quotation
omitted). When “the government seeks to meet its burden of proof on the basis of
circumstantial evidence, however, it must rely on reasonable inferences in order to
establish a prima facie case.” Id. (quoting United States v. Villegas, 911 F.2d 623,
628 (11th Cir. 1990)) (emphasis in original).
At bottom, the court must uphold the conviction “if any rational trier of fact
could have found the essential elements of the crime beyond a reasonable doubt.”
United States v. Gomez-Castro, 605 F.3d 1245, 1248 (11th Cir. 2010) (emphasis in
original).
A person is guilty of aiding and assisting in the filing of false income tax
returns if she
[w]illfully aids or assists in, or procures, counsels, or advises the preparation
or presentation under, or in connection with any matter arising under, the
internal revenue laws, of a return, affidavit, claim, or other document, which
is fraudulent or is false as to any material matter, whether or not such falsity
2

App. 57

Case 2:17-cr-00487-WKW-WC Document 111 Filed 05/28/19 Page 3 of 4

or fraud is with the knowledge or consent of the person authorized or
required to present such return, affidavit, claim, or document.
26 U.S.C. § 7206(2). As the court instructed the jury, the government must prove
beyond a reasonable doubt that Defendant: (1) helped present a false tax return;
(2) knew the return was false; (3) the false statement(s) were material — that is,
they related to a matter of significance; and (4) acted willfully — that is, with the
intent to do something the law forbids. It is proof of Defendant’s knowledge of the
falsity of the returns charged in Counts 1 and 2 that is lacking.
Counts 1 and 2 charge Defendant with helping Demarvin Brown file false
income tax returns for 2013 and 2014. In 2013, Brown claimed income of $44,349
and Schedule C losses of $23,751 for a lawn care business, resulting in a claimed
refund of $8,707 (the actual refund owed to Brown was $605). (Gov’t Exs. 1A,
62.) In 2014, Brown claimed income of $39,139 and Schedule C losses of $20,646
for a lawn care business, resulting in a claimed refund of $7,947 (the actual refund
owed to Brown was $1,519). (Gov’t Exs. 2A, 62.) Defendant collected $460 and
$550 in fees from filing Brown’s returns in 2013 and 2014, respectively. (Gov’t
Ex. 62.)
Defendant’s client file for Brown was also admitted into evidence. (Gov’t
Ex. 36.) That file contained no materials supporting Brown’s 2013 and 2014
claims for Schedule C losses for a lawn care business.

IRS Special Agent

Christopher Forte confirmed that Defendant: (1) filed Brown’s 2013 and 2014
3

App. 58

Case 2:17-cr-00487-WKW-WC Document 111 Filed 05/28/19 Page 4 of 4

returns; and (2) turned over Brown’s client files in response to a subpoena. He
also testified that there were no materials in those files that would support a claim
for Schedule C losses for a lawn care business.
No rational juror could find beyond a reasonable doubt that Defendant had
knowledge of the falsity of Brown’s 2013 and 2014 returns. Agent Forte did not
testify as to the completeness of those client files — that is, he could not say what
documentation Brown gave Defendant to support the claims for Schedule C losses.
And unlike the false returns charged in Counts 3 through 10, the taxpayer (Brown)
did not testify as to what he told (or did not tell) Defendant when he asked her to
prepare his taxes. For aught that appears in the record, Brown may have had a
legitimate lawn care business with legitimate receipts. There was no proof either
way. In short, the jury had no more than a client file, with no evidence of its
completeness, and business losses that looked implausible based on the taxpayer’s
income. That is not enough evidence to sustain Defendant’s convictions on Counts
1 and 2.
It is therefore ORDERED that Defendant’s motion for judgment of acquittal
under Federal Rule of Criminal Procedure 29 is GRANTED as to Counts 1 and 2
of the indictment. The jury’s guilty verdict stands as to Counts 3 through 10.
DONE this 28th day of May, 2019.
/s/ W. Keith Watkins
UNITED STATES DISTRICT JUDGE
4

App. 59

United States Constitution
Article II, § 1, cl. 1
The executive Power shall be vested in a President of the United States
of America. He shall hold his Office during the Term of four Years, and,
together with the Vice President, chosen for the same Term, be elected,
as follows

App. 60

United States Constitution
Article II, § 2, cl. 1
The President shall be Commander in Chief of the Army and Navy of the
United States, and of the Militia of the several States, when called into
the actual Service of the United States; he may require the Opinion, in
writing, of the principal Officer in each of the executive Departments,
upon any Subject relating to the Duties of their respective Offices, and
he shall have Power to grant Reprieves and Pardons for Offences against
the United States, except in Cases of Impeachment.

App. 61

United States Constitution
Article II, § 3
He shall from time to time give to the Congress Information of the State
of the Union, and recommend to their Consideration such Measures as
he shall judge necessary and expedient; he may, on extraordinary
Occasions, convene both Houses, or either of them, and in Case of
Disagreement between them, with Respect to the Time of Adjournment,
he may adjourn them to such Time as he shall think proper; he shall
receive Ambassadors and other public Ministers; he shall take Care that
the Laws be faithfully executed, and shall Commission all the Officers of
the United States.

App. 62

United States Constitution
Article III, § 1

The judicial Power of the United States, shall be vested in one supreme
Court, and in such inferior Courts as the Congress may from time to time
ordain and establish. The Judges, both of the supreme and inferior
Courts, shall hold their Offices during good Behaviour, and shall, at
stated Times, receive for their Services, a Compensation, which shall not
be diminished during their Continuance in Office.

App. 63

United States Constitution
Article III, § 2

The judicial Power shall extend to all Cases, in Law and Equity, arising
under this Constitution, the Laws of the United States, and Treaties
made, or which shall be made, under their Authority;—to all Cases
affecting Ambassadors, other public Ministers and Consuls;—to all Cases
of admiralty and maritime Jurisdiction;—to Controversies to which the
United States shall be a Party;—to Controversies between two or more
States;— between a State and Citizens of another State,—between
Citizens of different States,—between Citizens of the same State
claiming Lands under Grants of different States, and between a State, or
the Citizens thereof, and foreign States, Citizens or Subjects.
In all Cases affecting Ambassadors, other public Ministers and Consuls,
and those in which a State shall be Party, the supreme Court shall have
original Jurisdiction. In all the other Cases before mentioned, the
supreme Court shall have appellate Jurisdiction, both as to Law and
Fact, with such Exceptions, and under such Regulations as the Congress
shall make.
The Trial of all Crimes, except in Cases of Impeachment, shall be by Jury;
and such Trial shall be held in the State where the said Crimes shall
have been committed; but when not committed within any State, the
Trial shall be at such Place or Places as the Congress may by Law have
directed.

App. 64

Federal Rules of Criminal Procedure
Rule 11. Pleas
(a) Entering a Plea.
(1) In General. A defendant may plead not guilty, guilty, or (with the
court’s consent) nolo contendere.
(2) Conditional Plea. With the consent of the court and the government,
a defendant may enter a conditional plea of guilty or nolo contendere,
reserving in writing the right to have an appellate court review an
adverse determination of a specified pretrial motion. A defendant who
prevails on appeal may then withdraw the plea.
(3) Nolo Contendere Plea. Before accepting a plea of nolo contendere,
the court must consider the parties’ views and the public interest in the
effective administration of justice.
(4) Failure to Enter a Plea. If a defendant refuses to enter a plea or if a
defendant organization fails to appear, the court must enter a plea of
not guilty.
(b) Considering and Accepting a Guilty or Nolo Contendere Plea.
(1) Advising and Questioning the Defendant. Before the court accepts a
plea of guilty or nolo contendere, the defendant may be placed under
oath, and the court must address the defendant personally in open
court. During this address, the court must inform the defendant of, and
determine that the defendant understands, the following:

App. 65

(A) the government’s right, in a prosecution for perjury or false
statement, to use against the defendant any statement that the
defendant gives under oath;
(B) the right to plead not guilty, or having already so pleaded, to
persist in that plea;
(C) the right to a jury trial;
(D) the right to be represented by counsel—and if necessary have the
court appoint counsel—at trial and at every other stage of the
proceeding;
(E) the right at trial to confront and cross-examine adverse witnesses,
to be protected from compelled self-incrimination, to testify and
present evidence, and to compel the attendance of witnesses;
(F) the defendant’s waiver of these trial rights if the court accepts a
plea of guilty or nolo contendere;
(G) the nature of each charge to which the defendant is pleading;
(H) any maximum possible penalty, including imprisonment, fine, and
term of supervised release;
(I) any mandatory minimum penalty;
(J) any applicable forfeiture;
(K) the court’s authority to order restitution;

App. 66

(L) the court’s obligation to impose a special assessment;
(M) in determining a sentence, the court’s obligation to calculate the
applicable sentencing-guideline range and to consider that range,
possible departures under the Sentencing Guidelines, and other
sentencing factors under 18 U.S.C. § 3553(a);
(N) the terms of any plea-agreement provision waiving the right to
appeal or to collaterally attack the sentence; and
(O) that, if convicted, a defendant who is not a United States citizen
may be removed from the United States, denied citizenship, and
denied admission to the United States in the future.
(2) Ensuring That a Plea Is Voluntary. Before accepting a plea of guilty
or nolo contendere, the court must address the defendant personally in
open court and determine that the plea is voluntary and did not result
from force, threats, or promises (other than promises in a plea
agreement).
(3) Determining the Factual Basis for a Plea. Before entering judgment
on a guilty plea, the court must determine that there is a factual basis
for the plea.
(c) Plea Agreement Procedure.
(1) In General. An attorney for the government and the defendant’s
attorney, or the defendant when proceeding pro se, may discuss and
reach a plea agreement. The court must not participate in these
discussions. If the defendant pleads guilty or nolo contendere to either
a charged offense or a lesser or related offense, the plea agreement may
specify that an attorney for the government will:

App. 67

(A) not bring, or will move to dismiss, other charges;
(B) recommend, or agree not to oppose the defendant’s request, that a
particular sentence or sentencing range is appropriate or that a
particular provision of the Sentencing Guidelines, or policy statement,
or sentencing factor does or does not apply (such a recommendation or
request does not bind the court); or
(C) agree that a specific sentence or sentencing range is the
appropriate disposition of the case, or that a particular provision of
the Sentencing Guidelines, or policy statement, or sentencing factor
does or does not apply (such a recommendation or request binds the
court once the court accepts the plea agreement).
(2) Disclosing a Plea Agreement. The parties must disclose the plea
agreement in open court when the plea is offered, unless the court for
good cause allows the parties to disclose the plea agreement in camera.
(3) Judicial Consideration of a Plea Agreement.
(A) To the extent the plea agreement is of the type specified in Rule
11(c)(1)(A) or (C), the court may accept the agreement, reject it, or
defer a decision until the court has reviewed the presentence report.
(B) To the extent the plea agreement is of the type specified in Rule
11(c)(1)(B), the court must advise the defendant that the defendant
has no right to withdraw the plea if the court does not follow the
recommendation or request.
(4) Accepting a Plea Agreement. If the court accepts the plea agreement,
it must inform the defendant that to the extent the plea agreement is
of the type specified in Rule 11(c)(1)(A) or (C), the agreed disposition
will be included in the judgment.

App. 68

(5) Rejecting a Plea Agreement. If the court rejects a plea agreement
containing provisions of the type specified in Rule 11(c)(1)(A) or (C), the
court must do the following on the record and in open court (or, for good
cause, in camera):
(A) inform the parties that the court rejects the plea agreement;
(B) advise the defendant personally that the court is not required to
follow the plea agreement and give the defendant an opportunity to
withdraw the plea; and
(C) advise the defendant personally that if the plea is not withdrawn,
the court may dispose of the case less favorably toward the defendant
than the plea agreement contemplated.
(d) Withdrawing a Guilty or Nolo Contendere Plea. A defendant may
withdraw a plea of guilty or nolo contendere:
(1) before the court accepts the plea, for any reason or no reason; or
(2) after the court accepts the plea, but before it imposes sentence if:
(A) the court rejects a plea agreement under Rule 11(c)(5); or
(B) the defendant can show a fair and just reason for requesting the
withdrawal.
(e) Finality of a Guilty or Nolo Contendere Plea. After the court imposes
sentence, the defendant may not withdraw a plea of guilty or nolo
contendere, and the plea may be set aside only on direct appeal or
collateral attack.

App. 69

(f) Admissibility or Inadmissibility of a Plea, Plea Discussions, and
Related Statements. The admissibility or inadmissibility of a plea, a plea
discussion, and any related statement is governed by Federal Rule of
Evidence 410.
(g) Recording the Proceedings. The proceedings during which the
defendant enters a plea must be recorded by a court reporter or by a
suitable recording device. If there is a guilty plea or a nolo contendere
plea, the record must include the inquiries and advice to the defendant
required under Rule 11(b) and (c).
(h) Harmless Error. A variance from the requirements of this rule is
harmless error if it does not affect substantial rights.

App. 70

Federal Rules of Criminal Procedure
Rule 48. Dismissal

(a) By the Government. The government may, with leave of court, dismiss
an indictment, information, or complaint. The government may not
dismiss the prosecution during trial without the defendant’s consent.
(b) By the Court. The court may dismiss an indictment, information, or
complaint if unnecessary delay occurs in:
(1) presenting a charge to a grand jury;
(2) filing an information against a defendant; or
(3) bringing a defendant to trial.

App. 71

